                                                    SENSITIVE BUT UNCLASSIFIED



                                              United States Department of State
                                           and the Broadcasting Board of Governors
                                                  Office of Inspector General
Office of Inspector General

                                                 Office of Inspections

                               Inspection of Embassy Bucharest, Romania


                                            Report Number ISP-I-12-45A, August 2012




                                                                Important Notice

                              This report is intended solely for the official use of the Department of State or the
                              Broadcasting Board of Governors, or any agency or organization receiving a copy
                              directly from the Office of Inspector General. No secondary distribution may be made,
                              in whole or in part, outside the Department of State or the Broadcasting Board of
                              Governors, by them or by other agencies of organizations, without prior authorization
                              by the Inspector General. Public availability of the document will be determined by the
                              Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of this report
                              may result in criminal, civil, or administrative penalties.




                                                    SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2011 by the Council of Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General for the
U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

   •   Policy Implementation: whether policy goals and objectives are being effectively
       achieved; whether U.S. interests are being accurately and effectively represented; and
       whether all elements of an office or mission are being adequately coordinated.

   •   Resource Management: whether resources are being used and managed with maximum
       efficiency, effectiveness, and economy and whether financial transactions and accounts
       are properly conducted, maintained, and reported.

   •   Management Controls: whether the administration of activities and operations meets the
       requirements of applicable laws and regulations; whether internal management controls
       have been instituted to ensure quality of performance and reduce the likelihood of
       mismanagement; whether instance of fraud, waste, or abuse exist; and whether adequate
       steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                           i
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



                                                        United States Department of State
                                                        and the Broadcasting Board of Governors

                                                        Office of Inspector General




                                           PREFACE


       This report was prepared by the Office of Inspector General (OIG) pursuant to the
Inspector General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980,
as amended. It is one of a series of audit, inspection, investigative, and special reports prepared
by OIG periodically as part of its responsibility to promote effective management,
accountability, and positive change in the Department of State and the Broadcasting Board of
Governors.

        This report is the result of an assessment of the strengths and weaknesses of the office,
post, or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

       The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective, efficient,
and/or economical operations.

       I express my appreciation to all of those who contributed to the preparation of this report.




                                              Harold W. Geisel
                                              Deputy Inspector General




                                           ii
                              SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


                                Table of Contents

Key Judgments                                            1
Context                                                  2
Executive Direction                                      3
Policy and Program Implementation                        6
  Political Section                                      6
  Economic Section                                       6
  Public Affairs Section                                 7
  Consular Section                                      12
Resource Management                                     17
  Management Operations                                 18
  Financial Management                                  18
  Human Resources                                       19
  General Services                                      21
  Information Management                                26
Quality of Life                                         27
  Community Liaison Office                              27
  Medical Unit                                          27
  Bucharest Employee Recreation Association             28
  American International School of Bucharest            28
Management Controls                                     29
List of Recommendations                                 30
List of Informal Recommendations                        32
Principal Officials                                     34
Abbreviations                                           35




                                       iii
                           SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Key Judgments
   •   The Ambassador provides dynamic leadership to a country team engaged in a wide range
       of activities to advance U.S. interests. The Ambassador has led the mission to notable
       political, political-military, public outreach, and economic-commercial successes.

   •   The Ambassador thinks strategically and has a clear set of goals that can be pursued more
       efficiently by establishing working groups among embassy sections and agencies.

   •   The embassy’s preparedness for an emergency, such as an earthquake or natural disaster,
       needs improvement.

   •   Romania has graduated from its post-communist transition and is now a full member of
       the European Union and the North Atlantic Treaty Organization (NATO). With the
       closure of the U.S. Agency for International Development office in 2008 and the
       expected departure of the Peace Corps in 2013, the embassy has gradually recalibrated
       the diplomatic relationship to emphasize defense, commercial, and anticorruption issues.

   •   The embassy’s public diplomacy engagement is appropriately focused on mission
       priorities. Opportunities exist to make better use of social media to amplify policy
       messages and to further integrate public diplomacy into mission operations.

   •   The consular section provides efficient and well-run visa and U.S. citizen services.
       Romania’s interest in joining the Visa Waiver Program and international adoption issues
       attract high-level Washington attention.

   •   The move to a functional and secure new embassy compound (NEC) in 2011 allowed the
       embassy to consolidate seven buildings into a single facility. This move has enhanced
       internal communication and reduced security vulnerabilities.

   •   Locally employed (LE) staff members are notably well integrated into embassy
       operations. (b) (5)



The inspection took place in Washington, DC, between April 12 and May 1, 2012, and in
Bucharest, Romania, between May 2 and 21, 2012. (b) (6)




                                          1
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Context
         Descended from the ancient Roman province of Dacia, modern Romania occupies a
strategic position between the Balkans and the Black Sea that includes some of Europe’s most
fertile agricultural lands. Blessed with abundant hydropower, mineral resources, and an aging but
substantial industrial base, Romania’s economy has grown rapidly in the past decade as the
country emerged from the shadow of decades of repressive communist autocracy. Nearly 24
years after a violent revolution, Romania has made steady progress in establishing rule of law,
holding free and fair democratic elections, and instituting a market economy. President Traian
Basescu, elected in 2004, has presided over the country’s accession to the European Union and
NATO. Romania is a close strategic partner of the United States and a solid ally.

        The scars of decades of harsh communist rule remain: Romania’s 21 million citizens are
still among the poorest in Europe, and the country’s weak civil and government institutions
remain of concern. Widespread corruption and red tape hobble development. The country was hit
hard by the international economic crisis in 2008. In response to large fiscal and trade deficits,
Romania undertook a stringent austerity program in 2010 that sparked civil unrest, widespread
demonstrations, and political instability.

        U.S. policy objectives in Romania include strengthening defense cooperation, promoting
economic growth and structural reform, supporting judicial reform and anticorruption efforts,
and encouraging respect for the rights of Romania’s Hungarian and Roma minority populations.
The military alliance and NATO cooperation are pillars of Romanian-U.S. relations. In February
2010, President Basescu agreed to host U.S. missile defense assets and, in 2011, allowed the
United States to use Romanian territory as a transportation hub for personnel and equipment
going to and from Afghanistan and other conflict areas. Romania plays a constructive role in its
relations with neighboring countries in the Balkans, and the United States seeks to encourage
further engagement with other former Soviet republics with which Romania exercises influence.
U.S.-Romanian cooperation is especially strong with respect to law enforcement and
counterterrorism. Cooperation on cybercrime is improving and is a primary focus of the
mission’s law enforcement agencies. Romania’s aspirations to join the Visa Waiver Program
depend on meeting entrance criteria, which would include having a lower visa refusal rate than
the current level of approximately 20 percent.

        Embassy staffing consists of 105 U.S. direct hires and 287 LE staff members, which
includes personnel from the Departments of Agriculture, Commerce, State, Defense, Homeland
Security, and Justice, as well as the Peace Corps. In 2011, the embassy moved to an NEC and
colocated personnel into a single secure facility. Operating budgets for all agencies at the
mission totaled $22.4 million. In addition, the embassy requested a foreign assistance portfolio
totaling $13.3 million in FY 2013, primarily for defense cooperation and assistance programs.




                                          2
                             SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED


Executive Direction
        The Ambassador provides dynamic and strategic leadership to a country team engaged in
a wide range of activities to advance U.S. interests. In Bucharest since August 2009, the
Ambassador has led the mission to notable political, political-military, public outreach, and
economic-commercial successes. These include visits of high-level Romanian leaders to the
United States and Vice President Biden’s visit to Romania, a missile defense agreement that won
by 90 votes to none in the Romanian parliament, robust Romanian participation in the NATO-led
International Security Force in Afghanistan, successful extradition and prosecution of
cybercriminals, close counterterrorism cooperation, and groundbreaking support to youth-
dominated social networks focused on corruption and mismanagement in government.

        With extensive experience on Capitol Hill in Washington, the Ambassador has the
instincts of a politician and uses this strength to work effectively with leaders from all elements
of Romania’s rough and tumble politics. With his legal background, the Ambassador has been an
effective proponent of U.S. policies with Romania’s government, as well as an untiring advocate
for rule of law in a country that is perceived as very corrupt. 1 The Bureau of European and
Eurasian Affairs has the highest regard for the Ambassador’s leadership and effectiveness as a
diplomat. Bureau leaders regard him as a role model for both career and noncareer chiefs of
mission.

        The deputy chief of mission (DCM) is an experienced career officer who served a lengthy
period as chargé d’affaires in his previous posting, led a consulate general in Germany, and
worked over a decade ago as management officer in Bucharest. With an activist Ambassador
focused outside the mission and with very capable embassy sections and U.S. government
agencies supporting the Ambassador, the DCM has dedicated the bulk of his time and attention,
since arriving in late summer 2011, to build and strengthen the mission’s management team. The
DCM demonstrated extraordinary leadership as the embassy handled the first gender
reassignment of a Foreign Service officer. Working closely with that officer, the DCM brought
all necessary elements together to manage the mission’s response to this transition tactfully and
appropriately.

        In September 2011, the mission moved from nine separate locations in central Bucharest
to an NEC on the north side of the city near the main international airport. This consolidation of
embassy operations on a single compound immediately enhanced communication opportunities
across sections and agencies. After the move to the NEC, the Ambassador continued the practice
of holding a weekly country team meeting that brings together section chiefs and agency heads.
The DCM meets weekly with sections chiefs and on a monthly or twice-monthly schedule with
most agency heads. Section chiefs and other agency heads have ready access to the Ambassador
and DCM. With the Ambassador’s strong focus on external policy issues, some sections with an
operational focus, such as consular and management, regard him as somewhat distant despite
their inclusion in embassy community events and his occasional visits to their sections. The


1
 In its 2011 report, Transparency International’s corruption perception index put Romania at number 74 (tied with
China) out of 183 countries and territories assessed. Romania was assessed at 3.6 on a scale of 0-10, where 10 is a
perception of no corruption.
                                                3
                                   SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

inspectors discussed with the Ambassador how he might strengthen these inside elements’
appreciation of his objectives and their roles in supporting them.

         The Ambassador has organized three offsite strategy sessions during his tenure, and he
found these useful in assessing progress on strategic objectives and assigning tasks. He has a
weekly scheduling meeting that includes key members of the front office staff, protocol
assistants, his spouse, and political and economic section representatives; these meetings are
tactical, not strategic, in focus. Meetings required by regulation, such as the emergency action
committee and Visas Vipers committee, happen as they should. However, with the exception of
the Ambassador’s occasional strategic offsite meetings, the mission does not bring together
sections and agencies to do strategic planning. Many employees described the mission to the
Office of Inspector General (OIG) team as “territorial” or stovepiped. A case in point was the
preparation of a unified mission approach to an emerging economic/commercial issue. In this
instance, the front office asked the economic section and the Foreign Commercial Service to
develop a missionwide policy on this issue. The economic section prepared an initial draft which
it then sent to the Foreign Commercial Service counselor for comment. Even though the draft
plan recognized the need for public diplomacy to be a critical part of the plan, that section was
not involved or initially asked for comment. In talking about this issue with the inspection team,
mission leaders realized they needed a more inclusive approach for coordination and cooperation
on this important issue.

        In August, the Ambassador will have served in his position for 3 years. His expectation is
that he will depart Bucharest before the end of 2012. Given the U.S. electoral cycle, it is
therefore likely that the mission will be without a nominated and confirmed chief of mission for
a number of months after his departure. The Ambassador is anxious that the strategic objectives
he has set for the mission carry on during this hiatus and that the stage be set for his successor.
He has confidence the DCM will provide strong leadership to the mission in that interim period,
but both he and the DCM realize that as chargé d’affaires, the DCM will have an enormous
burden of both inside and outside duties.

        In some other U.S. missions, chiefs of mission have found that strategic working groups,
composed of sections and agencies involved in achievement of mission objectives, are effective
tools. At Embassy Bucharest, the Ambassador has laid out a clear set of goals. When talking to
the inspection team, the Ambassador and DCM saw the potential value of initiating strategic
working groups that include the economic, political, and public diplomacy sections and agencies
such as the Foreign Commercial Service and Defense attaché office. These can build broader
mission communication, coordination, and cooperation to pursue the Ambassador’s goals now
and after he leaves and to support the DCM’s intent to provide continuity without loss of
momentum between chiefs of mission.

Recommendation 1: Embassy Bucharest should establish strategic working groups composed
of all appropriate and necessary sections and agencies to pursue the mission’s policy objectives.
(Action: Embassy Bucharest)




                                           4
                              SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED


First- and Second-Tour Officers and Staff

        Embassy Bucharest has more than a dozen first- and second-tour Foreign Service officers
and specialists. The DCM has embraced his responsibility to mentor and provide professional
development opportunities for these new employees. He organizes weekly brown bag events
with subject matter experts and makes himself available to respond to questions during these
sessions. He works with newly arrived staff members as they prepare their work requirements
statements and serves as reviewing officer for all entry-level American employees. The
inspection team suggested including travel and public speaking responsibilities into the work
requirements statements of new employees to provide additional professional development
opportunities to mission employees.

Emergency Preparedness

        Bucharest is at high risk for a seismic event. 2 A major earthquake in March 1977 resulted
in 1,500 deaths and caused great damage. Preparing the mission, its staff, and families for a
potential natural disaster is a necessity. With the departure of an American employee who took
the lead on this important responsibility, the mission’s emphasis on emergency preparedness has
flagged. The departed employee encouraged mission leaders to organize town hall meetings on
the subject and conduct realistic disaster drills. The Ambassador and DCM acknowledged to the
OIG team the need to reinvigorate mission efforts in this area. The inspection team identified
several emergency preparedness areas that need further attention; these are discussed later in this
report and its classified annex.




2
 The Department maintains a “Level of Seismicity at Foreign Service Posts and Consular Agencies” listing with
seismicity levels by zone ranging from zero, extremely low, to 4, very high. Bucharest is listed as zone 3. A U.S.
Geological Survey map shows Romania as being second only to Turkey for seismic risk in Europe.
                                                5
                                   SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Policy and Program Implementation
Political Section

        The embassy’s political section is efficient and fully staffed. Washington consumers
praised the embassy’s reporting, particularly on the formation of a new government, attitudes
toward NATO, and U.S. missile defense plans. The Ambassador relies on the political officer as
a substantive deputy and regularly discusses political issues with section staff. LE staff members
contribute to all substantive section reporting.

Economic Section

        The economic section provides well-sourced, clearly written economic analysis and good
reporting on local economic and finance issues. U.S. exports of manufactured goods and
services have steadily increased since 2009 and reached a 4-year high of approximately $914
million in 2012. Economic reporting and advocacy priorities in Romania, such as anticorruption,
access to emerging markets, and Romanian energy policy, have implications for U.S. economic
and commercial advocacy efforts.

        There has been a notable lack of regular collaboration among the Foreign Commercial
Service, the economic section, and the public affairs section (PAS) with respect to commercial
advocacy. The need for an integrated approach to communication and cooperation through
strategic working groups is discussed more fully in the Executive Direction section of this report.
Greater cooperation among these mission elements would increase the Ambassador’s ability to
support economic statecraft.

        The economic section has good access to the host government, business community, and
financial institutions in the capital. As a result, embassy reporting is detailed and presents a good
picture of Romanian economic realities in a time of economic instability. Washington consumers
cited embassy cables on energy policy, the banking system, and anticorruption efforts as
examples of useful and timely reporting. The embassy’s economic reporting tends to focus on
the capital. Additional reporting on the impact of economic austerity on a largely rural society
would give Washington a more complete view of developments in the broader Romanian
economy.

Embassy Daily Report

        Under the direction of the DCM, the political and economic sections oversee the drafting
and editing of a daily wrap-up report, which is a review of notable events in Romania that may
or may not be worthy of more complete reporting. Drafting the daily report is a time-consuming
task that requires several hours a day from reporting officers, section chiefs, and the DCM. The
embassy began preparing this product in response to a desire from Washington for more frequent
reporting. However, in the past year, the embassy has steadily increased the frequency and
timeliness of its front-channel reporting, which makes the daily report somewhat redundant.
Though still useful to the Bureau of European and Eurasian Affairs for spot reporting, the report
could be shortened to address only issues of interest to Washington.

                                           6
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 2: Embassy Bucharest, in coordination with the Bureau of European and
Eurasian Affairs, should streamline the daily report production process. (Action: Embassy
Bucharest, in coordination with EUR)

Travel Plans

        The political and economic sections do not have travel plans for in-country travel. In
addition, travel and internal regional responsibilities are not included in officers’ work
requirements statements. The political and economic sections have successfully cultivated
contacts in Bucharest. However, neither section has engaged in much travel outside the capital,
where most Romanians live. Each section has entry-level officers who speak Romanian. Because
many of the embassy’s official contacts in Bucharest speak English, in-country travel provides
valuable opportunities to use language skills, develop an understanding of perceptions in the
hinterlands, and meet potential future leaders.

       Informal Recommendation 1: Embassy Bucharest should develop travel plans for the
       political and economic sections and include travel within Romania in the work
       requirements statements of entry-level reporting officers.

Representational Plans

        The political and economic sections sponsor a relatively limited number of
representational events, generally one-on-one meetings with key contacts or events planned to
support official visitors from the United States. The sections do not have formal plans for
representational outreach activities. Representation is an important skill for all political and
economic officers to develop as they progress in their careers. Representational responsibilities
also do not feature in the work requirements statements of political and economic section
officers.

       Informal Recommendation 2: Embassy Bucharest should develop representational plans
       for the political and economic sections and include responsibility for representational
       activities in the work requirements statements of entry-level officers.

Public Affairs Section

        Overall, PAS serves the embassy well. PAS employs a wide range of public diplomacy
tools to inform and engage Romanian audiences, an effort aided by its operating in an
environment where the United States and its policies are generally well received. The section
could provide even greater value to the embassy, however, were the mission as a whole to take a
more integrated approach to achieving its goals and to include public diplomacy considerations
early and often in a revitalized strategic planning process. This issue is discussed more fully in
the Executive Direction section of this report.

        PAS has experienced, talented, and dedicated American and local staff. The section
boasts an active speakers program, a thriving network of American Corners, regular artistic and
cultural offerings, and a well-run International Visitor Leadership Program. The half-century old
Fulbright Program, run by a binational board since 1993, enjoys extraordinary popularity and
                                           7
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

prestige. The section’s contacts with Romanian media, both print and electronic, are wide and
deep. Mission-sponsored events and initiatives usually receive extensive coverage.

       Despite its many external successes, PAS has experienced internal problems. (b) (5)
                                                                misunderstandings about how
the public diplomacy budget could be used, and the physical separation of PAS from the rest of
the mission hampered collaboration. The situation has improved with the section’s move into the
NEC and changes in the section’s American staff. (b) (5)



                      During one 7-day period while the OIG team was in country, PAS
sponsored programs in Bucharest and other Romanian cities for an editorial cartoonist, an expert
on NATO, an army band, a jazz quartet, the deputy assistant secretary for public diplomacy in
the Bureau of European and Eurasian Affairs, and a screening at the embassy of a documentary
on the President. Creating and sharing a PAS activities calendar with the wider mission
community will enable PAS to communicate its activities and identify avenues for possible
collaboration with other embassy elements.

       Informal Recommendation 3: Embassy Bucharest should create, publish, and maintain a
       public diplomacy activities calendar on the mission’s intranet site that includes all press,
       cultural, and Information Resource Center events.

Cultural and Exchange Programs

       Programming U.S. experts is important to the mission and a core public diplomacy
function. Reduced financial support from the Bureau of International Information Programs,
however, has made it difficult for PAS to invite more than two or three experts a year to visit
Romania. The section has responded by using its own funds to support speaker programs,
expanding its use of digital videoconferences, promoting Web chats, and using in-house experts
whenever possible.

       The mission’s well-run International Visitor Leadership Program focuses on themes
important to the mission, including international security, rule of law, transparency and
accountability, environmental protection, and nongovernmental organization management. Most
embassy nominees were in the target age range (30-45), but more than 80 percent of nominees
were based in Bucharest, indicating that embassy officers are not active enough in searching for
good candidates outside the capital.

Fulbright Commission

        The Romanian-U.S. Fulbright Commission directs the Fulbright Scholarship Program in
country. The public affairs officer and the cultural affairs officer are ex officio members of the
binational board that oversees the commission. Romanian alumni of the program form part of the
country’s cultural, intellectual, and political elite, and many American alumni of the program
retain strong ties to Romania.

                                          8
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        Despite its many successes over the years, the commission and its newly installed
director—a former Fulbright scholar—face big challenges. The U.S. contribution to the
commission’s budget, $1.5 million in FY 2011, is being reduced by 5 percent. The United States
currently pays two-thirds of the budget but is seeking parity in contributions from European
countries with binational commissions. The agreement governing the commission’s operations is
due for renewal. The public affairs officer’s successor will face the challenge of renegotiating the
agreement while also dealing with increased program costs, lower U.S. contributions, and
Romanian dismay over the suspension of the Fulbright Senior Specialist Program.

Alumni Programming

        PAS has devoted minimal attention to working with alumni. Only 13 percent are
registered on the Department of State’s (Department) alumni Web site. Washington funded a
temporary alumni coordinator position in Romania in FY 2010, but the coordinator—an
employee of the Fulbright Commission—focused her efforts on Fulbright alumni. Though her
work resulted in a significant increase in Fulbright alumni registration rates, she left untapped
Romanian alumni of other U.S. Government-sponsored exchanges, including those by entities
other than the Department and the U.S. Agency for International Development. Such alumni
represent a natural asset for the mission’s efforts in Romania, but finding and engaging them
requires a sustained effort. Budget constraints preclude hiring a full-time alumni coordinator, and
PAS cannot easily add alumni outreach responsibilities to anyone in the cultural unit. The OIG
team suggested that PAS hire someone to conduct alumni outreach until the return of a staff
member currently on long-term leave.

       Informal Recommendation 4: Embassy Bucharest should reprogram the encumbered
       public affairs section local staff position, currently vacant, to focus on alumni
       programming and other critical needs of the section.

Information Outreach

        An American information officer and four LE information assistants ably navigate a
complex media environment that consists of a large and diverse number of outlets prone to
sensationalized reporting and promotion of their owners’ political and financial interests. The
Freedom House 2012 Freedom of the Press report rated the Romanian press as “partly free,”
ranking it 86th of 197 countries and last among European Union member countries. Despite the
challenges, PAS makes the mission’s voice heard and has shepherded the Ambassador through
an active schedule of media engagements. The press unit earns high marks from embassy
colleagues and Washington audiences for its daily news summary, media support, and spirit of
collaboration.

         The press unit prepares a written daily media summary, a task that it normally completes
by midday. Though this production schedule meets the needs of Washington consumers, it poses
a challenge for embassy officers who need to know what the press is reporting before heading
out to meetings with Romanian officials. In discussions with inspectors, however, the unit noted
that it monitors the Ambassador’s calendar and provides an oral press briefing earlier in the day,
if needed.

                                           9
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

       Press unit employees rely heavily on the Internet to access media resources, but say that
slow connections and an inability to access specific media Web sites hamper efficiency. Several
employees identified Internet performance and access as their most significant challenges. The
embassy has a dedicated Internet terminal for PAS to use, but it is located in the cultural unit.
Moving one of the embassy’s underutilized dedicated Internet network workstations to a location
where it can be more fully employed is a better use of mission resources.

       Informal Recommendation 5: Embassy Bucharest should move the public affairs
       section’s dedicated Internet network workstation in the cultural unit to the press unit.

        Embassy engagement with the local and international press is governed by the mission
media policy. The policy was last issued in November 2010 and is outdated. Though the OIG
team did not observe any adverse impact related to the outdated policy, common practice is to
review, update, and reissue the policy at least annually to ensure all mission members are aware
of rules governing media interaction.

       Informal Recommendation 6: Embassy Bucharest should update and reissue the mission
       media policy.

Social Media

         In 2010 PAS launched several social media platforms to reach and engage Romanian
audiences. The embassy’s primary Facebook page has nearly 3,000 fans and includes a link to
the Ambassador’s blog and informational posts from the embassy. It also contains a limited
number of posts from individuals who visit the page. Social media in Romania is growing
rapidly as well, and Romania now has more than 4 million Facebook users, up from 1.3 million
in 2010. The embassy’s YouTube channel and Flickr site serve as repositories for embassy photo
and video content. The consular section has a separate Facebook page with approximately 450
fans; it is targeted to individuals interested in consular information. The embassy has enjoyed
several significant social media successes, including using Facebook to live-stream the Ballistic
Missile Defense Agreement signing and to register participants for the Information Resource
Center’s (IRC) Night of the Libraries program.

        However, the embassy’s social media sites are not as effective as they could be. Part of
the problem is limited staffing resources; a larger issue is that the embassy as a whole has not
incorporated the use of social media into its strategic planning and daily operations. The embassy
does not update its social media sites, particularly its Facebook page, often enough to keep
content fresh and interesting; whatever updates occur usually originate with PAS. The lack of an
overarching embassy strategy for using social media is ironic, given its support for the Restart
Romania project, which engages Internet users to discuss and develop ideas for Web-based
solutions to social justice issues.

Recommendation 3: Embassy Bucharest should implement a strategy for social media
engagement, including the integration of social media into the activities of the strategic working
groups. (Action: Embassy Bucharest)


                                          10
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        The embassy’s social media sites are not fully compliant with requirements outlined in 5
FAM 790, which govern the use of social media. Specifically, the sites are not registered in the
Department’s Information Technology Asset Baseline, as required in 5 FAM 793.1 d. Further,
both the embassy’s primary Facebook page and the consular Facebook page feature third-party
advertising, which is prohibited in 5 FAM 794 a.(6)(a). The OIG team discussed the relevant
regulations with embassy staff members, who immediately took steps to bring the embassy’s
Web sites into compliance with regulations.

Recommendation 4: Embassy Bucharest should implement a plan to bring its social media sites
into compliance with Department of State regulations on social media. (Action: Embassy
Bucharest)

Information Resource Center

       The IRC provides a range of information services to the Romanian public and embassy
personnel. It is responsible for maintaining the embassy’s Web site and social media platforms
and also provides direction to a network of nine American Corners, extending the reach of the
mission well beyond the capital.

        The IRC’s move to the NEC had a significant impact on its operations. No longer in the
city center and located far from public transportation, the IRC is not easily accessible to contacts.
Visits to the IRC are by appointment only, and hosting large groups of visitors is hampered by
space constraints and security screening procedures. By contrast, during the IRC’s mid-1990s
heyday as the American Library, it was conveniently located in downtown Bucharest, had ample
programming space, and hosted an average of 1,000 visitors each day.

       To meet the post-move challenge of remaining engaged with the public, IRC staff began
an aggressive campaign of outreach and programming. The IRC also ramped up two key
programs that target youth audiences: “Meet America,” which arranges presentations by
diplomats, Peace Corps volunteers, Fulbright scholars, and other Americans at local schools, and
“America in the Movies,” which provides screenings at the embassy or local schools of
documentaries and other American films. The two programs combined have reached an audience
of more than 1,600 young people in the 6 months since the move.

        The IRC’s staff also produce publications directed at internal and external audiences. A
daily digest, called Today’s Press, provides embassy staff with articles on Romania published in
American and international media. The OIG team believes this publication is not needed.
Embassy employees can easily access the same articles through the Internet. Eliminating the
digest would enable IRC staff to focus more time and effort on publications targeted to
Romanian audiences and aligned with the mission’s strategic goals.

       Informal Recommendation 7: Embassy Bucharest should discontinue the internal
       Today’s Press publication.




                                          11
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


American Corners

         The IRC director oversees the mission’s American Corner Program. The OIG team
initially questioned whether a country the size of Romania warranted having nine American
Corners. The answer is yes. The Corners extend the mission’s reach in a cost-effective way. In
2011, the Corners held 288 programs that reached a total audience of nearly 25,000 people. Eight
of the nine Corners are active and well managed. PAS is in the process of transforming an
underperforming Corner in Bucharest into an English teaching center and establishing a new
American Corner at the National Library of Romania.

Grants Management

        PAS has a midsize grants program that aligns well with the mission’s strategic objectives.
In FY 2011, the section awarded $720,442 in grants, including nearly $178,000 from the Support
for East European Democracy fund, which the U.S. Agency for International Development
transferred to PAS following that agency’s departure from Romania in 2008. As of May 2012,
PAS had awarded $466,322 in grants, including nearly $381,000 in Support for East European
Democracy funds. This residual funding has enabled PAS to continue to focus significant
resources on key mission objectives such as anticorruption and civic engagement. With the
depletion of these funds nearing, the mission will need to craft innovative ways to continue
engagement in these key areas.

        The OIG team examined a selection of grants files and found them to be well organized
and, for the most part, to conform to Department requirements. A small number of files reviewed
did not contain appropriate justifications for awarding grants noncompetitively. In at least one
instance, a competitive grant opportunity was not listed in Grants.gov, as required by Department
and Office of Management and Budget policy. The OIG team counseled PAS staff on complying
with grants policy directives and requirements pertaining to publicizing grants opportunities.

Consular Section

        The consular section is well run and provides efficient, professional service to U.S.
citizens and foreign nationals seeking consular services and assistance. Romania currently does
not meet technical criteria to join the Visa Waiver Program but is interested in joining this
program at the earliest opportunity. The consul general provides guidance on this policy concern,
but his expertise could be more fully incorporated into decisionmaking within the mission.
Romanian adoption issues attract considerable attention from the international adoption
community. The Summer Work Travel Program is popular with young Romanians and
constitutes a significant workload component for the nonimmigrant visa unit.

Consular Section Space and Public Areas

        When the NEC opened in 2011, the consular section’s office space improved
significantly, but the new configuration also created operational challenges. For example, the
open floor plan is spacious and allows for good line of sight. However, the cashier booth has two
windows when only one is needed, and none of the 14 interview windows are fully accessible to
disabled visa applicants.
                                         12
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



        The public entrance to the consular section is physically separate from the main entrance
to the embassy to facilitate applicant security screening. Applicants stand in a covered, narrow
walkway on a public sidewalk on the opposite side of the street from the embassy compound
prior to security screening. The U.S. Government does not control this neighboring property, and
there is no designated pedestrian walkway. The Consular Management Handbook (7 FAH-1 H-
280) requires that overseas missions provide secure and appropriate public waiting areas.
Applicants have to dodge cars and trucks when approaching the consular entrance, creating a
safety hazard for consular clientele.

Recommendation 5: Embassy Bucharest should construct a covered area adjacent to the
embassy compound for consular applicants waiting to process through the consular controlled
access entrance. (Action: Embassy Bucharest)

        The consular waiting room has a long, narrow configuration. During the past winter, the
temperature in the waiting room approached freezing, and ice formed between the panes of glass
in the windows. The waiting room also creates traffic flow issues, as the area between the
consular interview windows and the waiting area also serves as the main passageway through the
waiting room. (b) (5)

                                There is no easy remedy to these problems as they are inherent in
the building’s design.

American Citizens Services

        The American citizens services unit provides timely, professional assistance and services.
The unit does a good job maintaining a warden network, conducting outreach to Americans
throughout the country, and keeping the consular part of the embassy’s duty book current. The
unit also has devoted attention to emergency preparedness. The newsletter for Americans in
Romania includes tips on emergency preparedness. The consular section inventories and
regularly updates the contents of “go-kits” that allow consular officers to provide offsite services
in the event of a natural disaster. The OIG team commended the consular section for attention to
the duty materials and emergency preparedness.

        Seven Americans are in prison in Romania, and consular officers visit them regularly.
The unit averages 45-60 Americans citizen death cases each year, the majority being ethnic
Romanian-American retirees. In 2009, Romania and the United States negotiated a bilateral
extradition treaty, and in the past 12 months, the American citizens services unit participated in
extraditing 11 people; the unit is currently processing another 12 cases.

Visa Services

        The immigrant visa unit and the nonimmigrant visa unit function efficiently. Wait times
for appointments are within global service standards and did not exceed 18 days at any time
during the last year for nonimmigrant visa applicants. An estimated 5,000 young Romanians
were expected to apply for the Summer Work Travel program, and the entire consular section
worked as a team to expedite those cases on special interview days. The consular section held a
                                          13
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

reception for returned participants to gain more information about their experiences with the
program. The embassy enlisted all consular officers to process these applications and also sought
help from an economic officer who had a consular title. Including officers from other sections in
this manner is a commendable practice that is a good use of available resources to meet surge
needs.

        The Bureau of Consular Affairs plans to implement the Global Support Strategy program
in Romania in August 2012. This program will outsource to a contractor certain consular
business functions, such as collecting consular fees, providing information to the public, setting
up visa appointments, and returning passports to applicants by courier. At present, six LE staff
members work in the nonimmigrant visa unit, rotating through different tasks. When the program
is activated, the workload for nonimmigrant visa LE staff is likely to change.

Embassy Referral Program

        The embassy referral program is not fully compliant with consular regulations in 9 FAM
Appendix K, Exhibit 1. A review of referrals from the past 12 months found that entry-level
officers had adjudicated 21 embassy referral visa cases, of which 19 did not have associated
documents scanned into the system in accordance with guidance. Both these practices are
inconsistent with worldwide consular referral policy procedures.

Recommendation 6: Embassy Bucharest should comply with all requirements of the worldwide
referral policy. (Action: Embassy Bucharest)

Visas Viper

       The Visas Viper program is an interagency initiative to make information available to
consular visa sections about known and suspected terrorists. The embassy holds regular monthly
Visas Viper committee meetings but has submitted reports after their due dates on five
occasions. Guidance in 9 FAM 40.37 N5.2 requires that reports be submitted by the 10th day of
each month. The embassy prepared one submission in the past year that included six names; this
submission was in the correct format. Timely reporting of Visas Viper information is important
to keep Washington agencies informed of visa applicants with potential ties to terrorist
organizations.

Recommendation 7: Embassy Bucharest should institute procedures to ensure that cable reports
of Visas Viper committee meetings are submitted on time. (Action: Embassy Bucharest)

Immigrant Visa Unit

        The immigrant visa chief oversees the immigrant visa unit. Appointments are scheduled
for afternoon hours after nonimmigrant visa interviews, which is an efficient practice. In 2010,
the embassy transferred responsibility for processing most Moldovan immigrant visa cases to
Embassy Chisinau and completed the transfer of remaining immigrant visa functions in 2011.
Embassy Bucharest’s LE staff levels were reduced accordingly. As noted earlier in this report,
the Government of Romania plans to allow limited international adoptions of Romanian children
by foreign nationals of Romanian heritage. Consequently, a few Romanian-American families
                                         14
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

have made inquiries indicating interest in adopting orphans. Although the workload is currently
negligible, the issue is an emotional, high-profile one for the adoption communities in the United
States and in Romania.

Consular Computer Equipment

        The consular section’s computer servers were installed in 2006 and 2008 and are at the
end of their lifespan. The embassy has made initial inquiries about replacing the servers, but has
not yet completed steps needed to order the servers. An Office of Consular Systems and
Technology cable (08 State 082229) states that consular servers and work stations would be
moving to a 4-year replacement cycle rather than a 3-year cycle. Responsibility for replacing
consular computer equipment is shared by the embassy and the Bureau of Consular Affairs. The
Bureau of Consular Affairs provided 55 new computer work stations and other consular
equipment in 2010 and 2011, but it did not replace aging network servers at that time. Consular
services require reliable information technology and Internet connectivity. The absence of proper
lifecycle management increases the risk of a server failure and corresponding interruption of
consular services to the public.

Recommendation 8: Embassy Bucharest should complete an updated inventory of consular
information management equipment, including the date of receipt, and request replacement and
backup equipment from the Bureau of Consular Affairs. (Action: Embassy Bucharest)

        Guidance from the Bureau of Consular Affairs pertaining to the replacement of consular
computer equipment is confusing and outdated. The consular section of the Foreign Affairs
Manual does not describe the ordering process in detail, and guidance available on the Consular
Systems Division Web site is also outdated. In the absence of clear procedures for ordering and
replacing computer equipment, embassies may experience difficulty in efficiently managing
consular information management needs.

Recommendation 9: The Bureau of Consular Affairs should provide updated cable and intranet
guidance to Embassy Bucharest regarding the supply and replacement cycles for consular
equipment, including servers, what equipment is the responsibility of the Bureau of Consular
Affairs, and what equipment should be requested from other sources. (Action: CA)

        Nonimmigrant visa applications must be submitted electronically through the Internet.
Applicants can make corrections but must have access to the Internet to do so. The staff cannot
make corrections to visa applications. The chancery is located in an area somewhat remote from
public transportation. The closest shopping area does not contain an Internet café, and applicants
are prohibited from bringing laptops or electronic wireless devices into the consular section.
Given the location of this embassy, a dedicated Internet network terminal in the consular section
waiting area would be an important customer service tool.

       Informal Recommendation 8: Embassy Bucharest should install a dedicated Internet
       network workstation in the consular waiting room.




                                         15
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Fraud Prevention Unit

       The fraud prevention unit functions well. The unit reviews all incoming visa applications,
performs validation studies, and searches U.S. and Romanian resources for business, educational,
and familial information, when necessary.

       As a member of the unit, the assistant regional security officer for investigations assists
the consular section as a law enforcement asset who coordinates with Romanian and U.S. law
enforcement entities. This employee does not regularly attend the weekly consular section
meeting, which diminishes his integration with the full consular section team.

       Informal Recommendation 9: Embassy Bucharest should require the assistant regional
       security officer for investigations to attend consular section staff meetings.

       In addition, the officer spends 2 days per week working with the regional security office
and only 3 days per week in the consular section. The memorandum of understanding between
the Bureau of Consular Affairs and the Bureau of Diplomatic Security establishes a split between
consular work and security work for these positions, with 80 percent of the officer’s time
dedicated to consular issues.

       Informal Recommendation 10: Embassy Bucharest should revise the work requirements
       statement of the assistant regional security officer for investigations to emphasize his
       consular fraud prevention responsibilities.




                                          16
                              SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Resource Management
          Agency               U.S. Direct-   U.S. Local-   Foreign        Total     Total
                                Hire Staff    Hire Staff    National       Staff    Funding
                                                             Staff                  FY 2011

Department of State
Diplomatic and Consular
Programs                                49              3          29         81    $3,935,100
ICASS                                    8              6         174        188    $8,735,000
Public Diplomacy                         3              0          17         20    $2,163,517
Diplomatic Security                      2              0          46         48    $1,388,589
Marine Security                          7              0           0          7      $206,200
Representation                           0              0           0          0       $33,800
Department of Agriculture
Foreign Agricultural Service             0              0              2       2      $97,604
Department of Defense
Defense Attaché Office                  12              1              3      16     $913,620
Office of Defense
Cooperation                              5              0              4       9     $245,700
U.S European Command/
U.S. Army in Europe                      1              0              1       2     $216,600
U.S European Command/
U.S. Air Forces in Europe                1              0              0       1     $122,712
Olmsted Scholarship                      2              0              0       2      $42,000
Department of Justice
Drug Enforcement
Administration                           2              0              0       2     $130,000
Federal Bureau of
Investigation                            5              0              0       5     $388,529
Legal Attaché’s Office                   1              0              0       1     $642,400
Department of Homeland
Security
U.S. Secret Service                      3              1              2       6      $501,900
Peace Corps                              3              0              2       5    $2,038,700
Foreign Commercial
Service                                  1              0           7          8      $627,699
Totals                                 105             11         287        403   $22,429,670




                                        17
                            SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



Management Operations

        The greatest challenge for the management section in the last year was the relocation of
all mission operations to the NEC. This move was well planned and well executed. Although
some residual issues have yet to be resolved, embassy personnel now work in a secure and
functional office building. The management section faces another challenge: an almost complete
turnover of American management staff, which could affect the section’s ability to provide
timely and responsive service.

        Despite the intense efforts associated with the relocation, the management section
maintained an adequate level of support to the mission community. In fact, recent customer
surveys indicate a relatively high degree of satisfaction with International Cooperative
Administrative Support Services (ICASS). In the 2012 ICASS customer satisfaction survey, the
overall average score for ICASS services was higher than both the Bureau of European and
Eurasian Affairs and worldwide average scores. Further, the average scores for Embassy
Bucharest show a marked improvement over those from the previous 4 years.

        The management section is directed by a seasoned management officer. He is well
regarded by his staff for creating a positive work environment. Knowledgeable and experienced
officers fill key positions in financial management and the information management office.
Embassy management recognizes the importance of training to ensure staff productivity and
performance and has dedicated substantial funds for training.

Financial Management

        The financial management office is directed by an experienced and highly competent
financial management officer. In addition to her normal duties, she serves as the embassy’s
Federal Women’s Program coordinator, post language officer, and treasurer of the employee
association. Feedback from colleagues and customers indicated a high degree of satisfaction with
the financial management office’s efficiency and customer service orientation. Average scores
for overall financial management operations, as well as for all financial management
subfunctions, exceeded comparable scores for both the 2012 ICASS customer survey and OIG’s
questionnaires.

Vouchering

         Embassy Bucharest outsourced travel voucher processing to the Bureau of the
Comptroller and Global Financial Service’s Post Support Unit for all mission personnel except
the Ambassador and DCM. The Bureau of European and Eurasian Affairs strongly supports this
initiative, and has declined to authorize filling a vacant voucher examiner position. The fact that
vouchers are no longer processed locally has somewhat eroded the level of customer satisfaction
for voucher processing, particularly among other agency personnel. Scores on ICASS
questionnaires for voucher services have declined in recent years, possibly because of this
change.


                                          18
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Cashier Services

        Embassy Bucharest has a Class B cashier and seven subcashiers. Cash counts for the
subcashiers are conducted by the respective supervisors, as required. The Class B cashier
maintains an authorized advance of (b) (5)     an amount that is sufficient to cover normal
operational requirements. The Class B cashier also provides accommodation exchange services
for the mission community. Department policy requires overseas missions to employ commercial
banks or automatic teller machines to provide accommodation exchange when possible.
However, Romanian banking laws do not allow banks to provide such services unless the
customer has an account with the bank. Embassy management submits the required annual
request to the Department justifying the need for in-house accommodation exchange services.

International Cooperative Administrative Support Services

       ICASS operates effectively and in accordance with established policies and regulations.
The ICASS council is properly constituted and the chair rotates among the respective council
members. There is a separate budget subcommittee that reviews financial targets and invoices.
ICASS meetings are held at appropriate intervals, with advance agendas and minutes prepared
and posted on the embassy’s Web page.

Travel Advances

        Embassy Bucharest frequently issues travel advances to local employees going on official
travel as well as to travelers participating in the mission’s numerous invitational travel programs.
The justification for use of cash advances is that credit cards are not in common use within
Romania, and travelers do not have a government travel card to pay travel expenses. However,
most travel advances are issued for international travel in countries where credit cards are in
common use, such as Germany and the United States. The inspectors noted that prepaid credit
cards may be a viable alternative to cash advances for this travel.

       Informal Recommendation 11: Embassy Bucharest should issue prepaid credit cards in
       place of cash advances for local employee travel.

Human Resources

        Customer satisfaction with overall human resources services is somewhat lower than for
other management section services. Average scores on the 2012 ICASS customer satisfaction
survey were lower than the Bureau of European and Eurasian Affairs and worldwide averages,
and also reflected a negative trend from prior year scores. The OIG questionnaires scores
indicate a similar rating of overall services, which were well below those of embassies
previously inspected. The surveys reflect a higher degree of satisfaction with LE staff services
but suggest that improvement is needed in human resources services to American employees.
Some customers cited dissatisfaction with the lack of human resources officer engagement in
dealing with problems involving eligible family member employment.




                                          19
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Equal Employment Opportunity

        Embassy Bucharest actively promotes Equal Employment Opportunity (EEO) and
diversity within the mission. Respondents to OIG questionnaires indicated a high degree of
appreciation for the sensitivity of the executive office to EEO issues. Many specifically cited the
manner with which embassy management addressed the gender reassignment of an American
staff member as evidence of management’s commitment to diversity in the workplace. An EEO
counselor was appointed and received training prior to his arrival, and his designated successor
also has received training. An EEO liaison for the LE staff also has been appointed and received
formal training. There was one minor deficiency noted in the EEO program. Some work
requirements statements for American officers did not include a statement regarding their
ongoing responsibility for support and adherence to principles of EEO and diversity.

       Informal Recommendation 12: Embassy Bucharest should review the work
       requirements statements for all American officers and revise those that do not contain an
       ongoing responsibility to support and adhere to principles of Equal Employment
       Opportunity and diversity in the workplace.

Locally Employed Staff Morale

      Working relationships between American and LE staff are marked by close coordination
and mutual respect. The overall atmosphere of collegiality contributes to the effectiveness of
embassy operations. (b) (5)




Language-Designated Positions

        There are 21 language-designated positions at Embassy Bucharest. Romanian language is
not essential to the work of the mission for a substantial number of Romanian language-
designated positions. Eight of the positions are located in the consular section, five are in the
political section, four are in the economic section, three are in PAS, and two are in the regional
security office. Twenty of the positions are designated 3/3 (general professional level proficiency
in reading and speaking). Consular officers routinely use Romanian in their daily work and for
public outreach. The public affairs officer occasionally uses Romanian for public speaking.
Other officers reported only a marginal need for Romanian language skills. It is not a good use of
U.S. Government funds to provide costly language training for positions that do not require it.
The embassy has not reviewed its language-designed positions to determine whether the officers
need language proficiency to successfully perform their job duties.


                                          20
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 10: Embassy Bucharest should conduct a comprehensive review of its
language-designated positions and amend its submission to the Bureau of Human Resources to
reduce the number of positions that are designated for language training. (Action: Embassy
Bucharest)

General Services

        Overall satisfaction with the general services office is relatively high among American
personnel, and the LE staff are capable and service-oriented. The shipping section has a
relatively new supervisor, and the procurement section supervisor and deputy recently retired
leaving vacant positions. The unit has instituted electronic filing systems for most operations,
including the shipping operation, which is now almost entirely paperless.

Housing

        The embassy manages a housing pool of 93 residences, the majority of which are leased.
With the completion of the NEC in the northern suburbs of Bucharest, the mission has sought to
increase the number of residences in this part of the city. However, newly constructed buildings
are often of poor quality. The depressed local real estate market has slowed construction of
suitable new properties in the vicinity of the embassy. Embassy employees raised concerns
about a lack of timely residential maintenance support and perceived sluggishness on the part of
embassy landlords in making required repairs.

       The interagency housing board has struggled to reach consensus about the appropriate
mix of housing near the embassy and in the city center. The housing assignments process is not
well documented in housing board minutes. With the arrival of a new supervisory general
services officer, the housing board has an opportunity to revisit the embassy’s long-term housing
requirements and increase collaboration between the general services office and the mission on
housing issues. The OIG team discussed with the Ambassador and DCM the value of using an
embassywide forum, such as a town hall meeting, to explain this strategy once it is developed.

       Informal Recommendation 13: Embassy Bucharest should develop a housing pool
       strategy based on the projected needs of the mission and availability of housing, with
       input from the interagency housing board.

Safety, Health, and Environmental Management Program

        The DCM residence includes a swimming pool that does not meet the Department’s
safety standards. Deficiencies include gates that do not have self-locking mechanisms, a lack of
depth markings in the pool, and a lack of required rescue and emergency response equipment
within the pool area. The absence of these essential safety features poses a risk of accidental
injury or drowning.

Recommendation 11: Embassy Bucharest should install all required safety features for the pool
at the deputy chief of mission’s residence. (Action: Embassy Bucharest)


                                          21
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Facilities Maintenance

        The facilities management unit faced myriad challenges associated with the move into the
NEC in 2011. The new building greatly improved operational efficiency for all mission
elements, but the facilities maintenance staff encountered a much different and more complex set
of responsibilities. In order to maintain sophisticated building systems, the facilities manager
arranged training for his staff, recruited additional specialists from local engineering schools, and
developed a comprehensive preventive maintenance schedule.

       Even with the demands associated with the NEC, the facilities maintenance staff met the
expectations of mission customers for quality of service. ICASS and OIG surveys indicated a
high degree of satisfaction with office building maintenance and a lesser yet still positive
assessment of residential maintenance. The early departure of the facilities manager will leave a
gap of 6 months before the arrival of his replacement, but mission management is confident that
the LE staff will continue to provide quality maintenance support.

New Embassy Compound

        Upon moving into the NEC, embassy management noted a number of significant issues
with the facility’s design and construction quality. The embassy facilities team has devoted a
great deal of time and energy to correcting problems. Some of the other projects completed
following the move into the new embassy compound include building a secure receiving area in
the warehouse, adding a kitchen to the staff and shop areas of the warehouse, resurfacing the
outdoor walkways, and enclosing the staircases of the parking garage. A number of remaining
problems must be resolved by the mission or the contractor under warranty, including a leaking
potable water tank, moisture in the first floor windows that produced ice during the winter, poor
quality concrete work, inoperable locks, and a faulty alarm system. The Bureau of Overseas
Buildings Operations expects to conduct a post occupancy evaluation program visit in November
2012 to assess comprehensively the embassy’s experience in the chancery.

Recommendation 12: Embassy Bucharest should prepare a lessons learned cable for the Bureau
of Overseas Buildings Operations, providing details and costs for all remedial new embassy
compound projects completed thus far by the original contractor, the facilities maintenance staff,
or other contractors, the scope and cost of all pending work orders to remedy construction
problems, and observations about the design of the facility, including areas for improvement.
(Action: Embassy Bucharest)

Chief of Mission Residence

        The embassy has occupied the chief of mission residence since 1975 and makes excellent
use of the large representational space both inside the house and on the grounds, previously a
park. However, the Government of Romania’s post-communist property restitution process has
divided the property into multiple lots with different owners. This situation has created a number
of problems, including disagreements among the three landlords about responsibility for
maintenance repairs. The most significant problem is the crumbling stairs on the terrace leading
from the house into the garden, which traverse all three properties. The embassy has attempted
to negotiate repairs to these stairs, to date unsuccessfully. The owners of one lot in particular are
                                          22
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

not interested in leasing the lot, but instead have offered to sell the property to the Department.
In an attempt to retain this attractive and functional residence in downtown Bucharest, the
embassy is evaluating several possible options, ranging from extending a short-term lease on one
of the parcels to purchasing all the properties in question. Embassy management also has
consulted with the Bureau of Overseas Buildings Operations, but the OIG team concluded that
the embassy and the bureau did not have a common understanding of the facts regarding the
property and local real estate law. The two existing leases for the property are due to expire in
September 2012 and in 2014, respectively, and the owners of a third lot are eager to sell.

Recommendation 13: Embassy Bucharest should prepare a front-channel cable to the Bureau of
Overseas Buildings Operations that discusses all viable options regarding the chief of mission
residence, including the challenges and benefits of each option, and the embassy’s recommended
course of action. (Action: Embassy Bucharest)

        The owners of the third lot have submitted to the embassy a demand for the payment of
approximately $290,000 in back rent. The owners notified the embassy in 2010 of the change in
ownership and the leases the embassy currently holds on the residence property exclude this lot
from the description of leased property. The embassy forwarded to the Bureau of Overseas
Buildings Operations all prior communication with the owners, but as of the date of this
inspection, there had been no resolution of the rental claim and limited progress regarding an
agreement with the owners to acquire the property.

Recommendation 14: The Bureau of Overseas Buildings Operations, in coordination with the
Office of the Legal Adviser and Embassy Bucharest, should determine the liability for back rent
and propose a settlement with the owners of the property. (Action: OBO, in coordination with L
and Embassy Bucharest)

Procurement

        The procurement unit is operating at half-strength following the retirement of the two
most experienced members of the unit. A recent visit from the Frankfurt Regional Support
Center staff identified a need for improved documentation of sole source decisions, more
consistent assignment of contracting officer’s representative duties, and expanded use of
competed solicitations. The assistant general services officer is actively implementing the
recommendations. The OIG team supports these continuing efforts.

         The inspectors found 30 pending procurement files from the previous 2 fiscal years, all of
which require followup review. Many contain documents indicating that goods and services were
received, and the files should thus be closed. The retired procurement agents had managed these
files, and the new agents were unfamiliar with them. Their review of the files would identify
whether the embassy is still liable for any payments or, alternatively, if funds could be
deobligated and the files closed.

Recommendation 15: Embassy Bucharest should review all pending procurement files from
prior fiscal years and close them when goods and services have been delivered. (Action:
Embassy Bucharest)

                                          23
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Property Management

         The warehouse is a spacious, well-designed, and fully equipped facility. The embassy’s
facilities staff constructed a receiving cage and shelving after occupancy. However, the
warehouse quickly filled with the existing inventory plus six new containers of residential
furniture that arrived during the inspection.

        The embassy is implementing two innovative programs to manage warehouse storage
more efficiently. These include use of the European Logistical Support Office’s just-in-time
furniture program to reduce the lead time for furniture deliveries and a planned program to
provide regional warehouse services to Embassy Chisinau. Until the embassy reduces its
holdings of residential furniture and appliances in the warehouse, it will not be able to proceed
with providing regional warehouse support to Embassy Chisinau.

       Informal Recommendation 14: Embassy Bucharest should develop a residential
       furniture plan to dispose of unnecessary furniture and reduce the inventory of personal
       property stored in the warehouse.

        The property section recently transferred personal property asset records into the
Integrated Logistics Management System. The inspectors noted that the warehouse employees
were still struggling to make full use of the new system. Although property staff received
training when the system was deployed, some employees need further assistance to prepare basic
reports.

       Informal Recommendation 15: Embassy Bucharest should provide supplemental
       training for employees using the Integrated Logistics Management System.

Official Vehicles

        The embassy conducted a motor vehicle fleet utilization review shortly before the
inspection and found that some vehicles in the fleet were underutilized. In response to this
review, the embassy prepared a plan to change chauffeur assignments and promote more
efficient scheduling of official government vehicles, to include ride sharing and a reduction in
the numbers of dedicated vehicle assignments. However, other alternatives to official vehicle
transportation have not been explored. Embassy Bucharest’s motor vehicles are driven on
average less than 5,000 miles per year. The embassy’s proposed replacement cycle calls for
replacing all vehicles in the fleet in order to maintain a fleet size of 52 vehicles. The OIG team
noted that taxis in Bucharest are plentiful and approved for use by the regional security office.

Recommendation 16: Embassy Bucharest should reduce the size of the embassy’s motor
vehicle fleet to meet official business requirements. (Action: Embassy Bucharest)

         The mission vehicle policy is comprehensive and appropriately limits use of the motor
pool for official business and other authorized use only, as required by 14 FAM. However, the
embassy does not adequately document the purpose of vehicles in the daily vehicle use logs,
particularly for vehicles other than those in the motor pool. In a review of more than 2 years of
trip tickets entered into the vehicle database, only two records were categorized as “other
                                          24
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

authorized use.” More than a thousand trip tickets indicated no category, and most of these did
not indicate the purpose of travel in the remarks. Without such information in the records, it was
impossible to determine the extent of other authorized use or impermissible use of vehicles.

Recommendation 17: Embassy Bucharest should record the purpose of travel in every trip
record for the use of official vehicles, including dedicated and non-motor pool assigned vehicles.
(Action: Embassy Bucharest)

        The OIG team found instances of more than 160 trips by family members of embassy
employees over the past several years. For the most part, these trips were likely activities that
had a nexus with official embassy business. However, the requests for these trips were not
reviewed by the management officer or DCM, as required by the embassy’s motor vehicle
policy, but instead were submitted directly to the dispatcher. Official government vehicles may
be used by family members only for business purposes, as defined in 14 FAM 433.1. Family
members are not permitted to use vehicles for other authorized use except under very limited
conditions.

Recommendation 18: Embassy Bucharest should require all family member use of official
vehicles to be for business purposes and to be personally approved in advance and in writing by
the deputy chief of mission. (Action: Embassy Bucharest)

        The mission vehicle policy allows use of official vehicles by official residence staff but
does not explicitly define this use as limited to trips in preparation for approved representational
events, per Department guidance. The mission scheduled motor pool services for use by the
official residence staff, but the purpose of this travel was not always recorded in the official
vehicle use records. All other transportation of official residence staff is considered staff
maintenance per 3 FAM 3251.3 and is part of the usual household expenditures to be provided
by the principal officer.

       Informal Recommendation 16: Embassy Bucharest should amend the motor vehicle
       policy to allow use of motor pool services for official residence staff only as allowed by
       Department of State regulations.

Travel Services

        Embassy Bucharest does not use the Department’s travel management center or have a
contract with a local travel agency to provide in-house services, as required by 14 FAM 542 b.
The embassy employs two LE staff members to arrange flights, hotels, local transportation, and
other needs of official travelers. However, they also devote considerable time and effort to
serving the personal travel needs of the embassy community. The OIG team identified 66
international air tickets that the embassy travel office obtained for personal travel by mission
personnel in 2011. Although these tickets were not purchased with government funds, the use of
local employees for these services is inappropriate.

Recommendation 19: Embassy Bucharest should cease the practice of local employees
providing personal travel services to embassy personnel. (Action: Embassy Bucharest)

                                          25
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 20: Embassy Bucharest should contract with a local travel agency to provide
travel management services for the mission. (Action: Embassy Bucharest)

Information Management

        The information management office is an effective, well-managed operation that
generally meets customer needs, as evidenced by high marks in ICASS and OIG questionnaires.
The OIG team inspected all facilities, reviewed systems and operating procedures, and assessed
the mail room. The inspectors concluded that internal operations are solid and that the section is
up-to-date on all standard operating practices. The information management team successfully
resolved a variety of technical challenges associated with the NEC move, including an
inoperable telephone switch, mislabeling of fiber optic jacks, and delayed installation of a radio
antenna on the roof of the chancery. All recommendations from a 2012 Bureau of Information
Resource Management computer security assessment have been closed. The OIG team
identified membership composition in the local information technology change control board as
an area for improvement. The classified annex to this report also contains recommendations
concerning information management contingency planning and physical security.

Regionalization of Classified Network Operations

        Embassy Bucharest is one of two Bureau of European and Eurasian Affairs missions
participating in a pilot program to regionalize classified network operations and support. The
classified regionalization project is intended to better meet business needs by consolidating the
classified networks from individual embassies at a regional hub. With less equipment and fewer
personnel overseas, the workload and complexity of administering these systems should be
reduced. Ultimately, the Department envisions possible reductions in American staffing, which
could result in cost savings of approximately $500,000 annually if an American position were
abolished. The embassy expects to implement the program by the end of FY 2012.

Local Information Technology Change Control Board

       Embassy Bucharest has established a local information technology change control board.
However, all board members are from the information management office. As specified in 5
FAM 862.2, the local information technology change control board should include other
members of the mission community as appropriate. Adding representatives from other sections
such as management or public affairs would increase users’ awareness and participation in
information management decisions, as well as increase the staff’s knowledge of its customers'
business needs.

       Informal Recommendation 17: Embassy Bucharest should appoint representatives from
       different sections to the local information technology change control board.




                                          26
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Quality of Life
        Morale among the American staff and family members is relatively good, based on the
results of the ICASS customer satisfaction survey and OIG questionnaire responses obtained for
the inspection. Services such as medical care and dependent education are highly regarded by
most respondents, as are the services of the community liaison office and the recreation
association. (b) (5)


Community Liaison Office

         Embassy Bucharest has a full-time community liaison office coordinator position, staffed
for the past 8 months by a family member who has served in this position at two previous
embassies. Based on OIG and ICASS scores, the embassy community approves of her
performance. Although scores were somewhat lower for the new employee sponsor program, she
recently modified it in response to customer feedback. The office provides the usual range of
services, such as outreach to incoming staff and families, cultural and travel programs, and
publication of a weekly newsletter. However, the coordinator has not yet offered the community
a training course in personal preparedness for emergencies, which is a key responsibility. In view
of the embassy’s location in an active seismic zone, such a program is important for emergency
preparedness.

       Informal Recommendation 18: Embassy Bucharest should provide personal
       preparedness seminars for staff and family members, scheduled as soon as possible after
       the conclusion of the annual transfer cycle.

        The coordinator represents family member interests on various internal embassy
committees. Although the coordinator is included on the designation of responsibilities list as a
member of the emergency action committee, she has not been included in meetings. The
coordinator’s participation in emergency action committee meetings is necessary to keep family
members adequately informed during a crisis or emergency and is required by Department
regulations.

       Informal Recommendation 19: Embassy Bucharest should include the community
       liaison office coordinator in all meetings of the emergency action committee.

Medical Unit

        Embassy Bucharest’s medical unit provides quality medical care to American employees
and dependents, as well as limited emergency services to LE staff members for on-the-job
injuries or illnesses. The medical infrastructure in Romania is inadequate for primary and
specialist medical services. London is the medical evacuation point for patients who require
secondary care and for those with complex medical problems. The mission community gave
very high marks in OIG’s questionnaires to the overall quality of medical services provided by
the unit. The unit’s average score on the 2012 ICASS customer satisfaction survey indicates a
similar degree of satisfaction with the health unit.

                                         27
                             SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


Bucharest Employee Recreation Association

        The Bucharest Employee Recreation Association provides a full range of community
services, to include a commissary, cafeteria, and school transportation for children of official
American employees. The association reported a net profit of more than $60,000 and is
financially stable. It is in compliance with annual audit, reporting, and liability insurance internal
controls. The association has taken actions to ensure that access to packaged duty-free items is
limited only to diplomatic personnel.
(b)(5)(b)(6)

        (b)(5)(b)(6)
                                                                    The school received high
marks from parents in OIG’s questionnaires and from the Office of Overseas Schools. Reflecting
its origins as a cold war school in which school operations were sheltered under the diplomatic
status of the embassy, the school works closely with the embassy on administrative matters. The
school has incorporated as a nonprofit corporation under Romanian law in order to more firmly
establish its status as a tax-exempt entity independent from the U.S. Government. The school is
also in the process of divesting its inventory of motor vehicles registered to the embassy as
diplomatic vehicles, but procured with school funds, a practice that was a holdover from the
communist era.

        The Ambassador appoints all members of the school’s board and the DCM serves as
chair of the board of directors. The school expects to review in 2012 proposed changes to the
school’s constitution and governing structure. Though by all accounts the DCM has done a good
job representing the embassy’s interests, his extensive official workload makes service on the
board an inefficient use of his time. At most embassies, the management officer is the
Ambassador’s representative to the school and carries out such duties on behalf of the embassy.

        Informal Recommendation 20: Embassy Bucharest should designate an employee other
        than the deputy chief of mission to serve as the Ambassador’s representative to the
        (b)(5)(b)(6)




                                           28
                               SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


Management Controls
         Embassy Bucharest has an adequate system of management controls in place. The
embassy identified no material weaknesses in its 2011 chief of mission statement of management
assurance. The management officer is the management controls officer, and he consults regularly
with the DCM and other management staff regarding internal controls. The designation of
responsibilities roster is current and indicates appropriate separation of responsibilities to protect
against misappropriation of resources. Embassy management has emphasized training for the LE
staff, particularly for ICASS staff members with responsibility for resource management.
Consular management controls are in good order, with equipment and supplies appropriately
stored and inventoried.

Gift Registry

       The Ambassador and other embassy personnel receive gifts from the host government,
other embassies, and private groups and individuals. Most gifts are relatively inexpensive items,
such as calendars or gift baskets containing food or wine, but some may be worth considerably
more. Gifts that are worth less than $350 may be retained for use by the recipient or the mission,
but those with an appraised value in excess of that amount must be reported to the Office of
Protocol within 60 days of receipt.

        Based upon a review of available files during the inspection, Embassy Bucharest has not
established a systematic and timely process for registering gifts. There was an attempt to update
the registry in preparation for the inspection, but it was incomplete and did not contain such vital
information as the valuation of the gifts or the dates of receipt. Without such information, it is
not possible to determine whether and when a specific gift must be reported. The lack of an
updated gift policy may be attributable to mission officers’ uncertainty regarding the regulations.

       Informal Recommendation 21: Embassy Bucharest should establish a policy and
       procedures for the management officer to promptly register all gifts received by mission
       personnel and to report such gifts as required.

       The OIG team noted that some officers who are responsible for managing mission
resources did not have specific language in their work requirements statements affirming these
responsibilities.

       Informal Recommendation 22: Embassy Bucharest should review and revise, as needed,
       the work requirements statements for all direct-hire employees with responsibility for
       managing funds or U.S. Government property to include ongoing responsibility for
       safeguarding such resources against waste, fraud, or mismanagement.




                                           29
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


List of Recommendations
Recommendation 1: Embassy Bucharest should establish strategic working groups composed
of all appropriate and necessary sections and agencies to pursue the mission’s policy objectives.
(Action: Embassy Bucharest)

Recommendation 2: Embassy Bucharest, in coordination with the Bureau of European and
Eurasian Affairs, should streamline the daily report production process. (Action: Embassy
Bucharest, in coordination with EUR)

Recommendation 3: Embassy Bucharest should implement a strategy for social media
engagement, including the integration of social media into the activities of the strategic working
groups. (Action: Embassy Bucharest)

Recommendation 4: Embassy Bucharest should implement a plan to bring its social media
sites into compliance with Department of State regulations on social media. (Action: Embassy
Bucharest)

Recommendation 5: Embassy Bucharest should construct a covered area adjacent to the
embassy compound for consular applicants waiting to process through the consular controlled
access entrance. (Action: Embassy Bucharest)

Recommendation 6: Embassy Bucharest should comply with all requirements of the
worldwide referral policy. (Action: Embassy Bucharest)

Recommendation 7: Embassy Bucharest should institute procedures to ensure that cable
reports of Visas Viper committee meetings are submitted on time. (Action: Embassy Bucharest)

Recommendation 8: Embassy Bucharest should complete an updated inventory of consular
information management equipment, including the date of receipt, and request replacement and
backup equipment from the Bureau of Consular Affairs. (Action: Embassy Bucharest)

Recommendation 9: The Bureau of Consular Affairs should provide updated cable and
intranet guidance to Embassy Bucharest regarding the supply and replacement cycles for
consular equipment, including servers, what equipment is the responsibility of the Bureau of
Consular Affairs, and what equipment should be requested from other sources. (Action: CA)

Recommendation 10: Embassy Bucharest should conduct a comprehensive review of its
language-designated positions and amend its submission to the Bureau of Human Resources to
reduce the number of positions that are designated for language training. (Action: Embassy
Bucharest)

Recommendation 11: Embassy Bucharest should install all required safety features for the
pool at the deputy chief of mission’s residence. (Action: Embassy Bucharest)

Recommendation 12: Embassy Bucharest should prepare a lessons learned cable for the
Bureau of Overseas Buildings Operations, providing details and costs for all remedial new
embassy compound projects completed thus far by the original contractor, the facilities
                                          30
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

maintenance staff, or other contractors, the scope and cost of all pending work orders to remedy
construction problems, and observations about the design of the facility, including areas for
improvement. (Action: Embassy Bucharest)

Recommendation 13: Embassy Bucharest should prepare a front-channel cable to the Bureau
of Overseas Buildings Operations that discusses all viable options regarding the chief of mission
residence, including the challenges and benefits of each option, and the embassy’s recommended
course of action. (Action: Embassy Bucharest)

Recommendation 14: The Bureau of Overseas Buildings Operations, in coordination with the
Office of the Legal Adviser and Embassy Bucharest, should determine the liability for back rent
and propose a settlement with the owners of the property. (Action: OBO, in coordination with L
and Embassy Bucharest)

Recommendation 15: Embassy Bucharest should review all pending procurement files from
prior fiscal years and close them when goods and services have been delivered. (Action:
Embassy Bucharest)

Recommendation 16: Embassy Bucharest should reduce the size of the embassy’s motor
vehicle fleet to meet official business requirements. (Action: Embassy Bucharest)

Recommendation 17: Embassy Bucharest should record the purpose of travel in every trip
record for the use of official vehicles, including dedicated and non-motor pool assigned vehicles.
(Action: Embassy Bucharest)

Recommendation 18: Embassy Bucharest should require all family member use of official
vehicles to be for business purposes and to be personally approved in advance and in writing by
the deputy chief of mission. (Action: Embassy Bucharest)

Recommendation 19: Embassy Bucharest should cease the practice of local employees
providing personal travel services to embassy personnel. (Action: Embassy Bucharest)

Recommendation 20: Embassy Bucharest should contract with a local travel agency to
provide travel management services for the mission. (Action: Embassy Bucharest)




                                         31
                             SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


List of Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: Embassy Bucharest should develop travel plans for the political
and economic sections and include travel within Romania in the work requirements statements of
entry-level reporting officers.

Informal Recommendation 2: Embassy Bucharest should develop representational plans for
the political and economic sections and include responsibility for representational activities in
the work requirements statements of entry-level officers.

Informal Recommendation 3: Embassy Bucharest should create, publish, and maintain a
public diplomacy activities calendar on the mission’s intranet site that includes all press, cultural,
and Information Resource Center events.

Informal Recommendation 4: Embassy Bucharest should reprogram the encumbered public
affairs section local staff position, currently vacant, to focus on alumni programming and other
critical needs of the section.

Informal Recommendation 5: Embassy Bucharest should move the public affairs section’s
dedicated Internet network workstation in the cultural unit to the press unit.

Informal Recommendation 6: Embassy Bucharest should update and reissue the mission
media policy.

Informal Recommendation 7: Embassy Bucharest should discontinue the internal Today’s
Press publication.

Informal Recommendation 8: Embassy Bucharest should install a dedicated Internet network
workstation in the consular waiting room.

Informal Recommendation 9: Embassy Bucharest should require the assistant regional
security officer for investigations to attend consular section staff meetings.

Informal Recommendation 10: Embassy Bucharest should revise the work requirements
statement of the assistant regional security officer for investigations to emphasize his consular
fraud prevention responsibilities.

Informal Recommendation 11: Embassy Bucharest should issue prepaid credit cards in place
of cash advances for local employee travel.

Informal Recommendation 12: Embassy Bucharest should review the work requirements
statements for all American officers and revise those that do not contain an ongoing
                                           32
                               SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

responsibility to support and adhere to principles of Equal Employment Opportunity and
diversity in the workplace.

Informal Recommendation 13: Embassy Bucharest should develop a housing pool strategy
based on the projected needs of the mission and availability of housing, with input from the
interagency housing board.

Informal Recommendation 14: Embassy Bucharest should develop a residential furniture plan
to dispose of unnecessary furniture and reduce the inventory of personal property stored in the
warehouse.

Informal Recommendation 15: Embassy Bucharest should provide supplemental training for
employees using the Integrated Logistics Management System.

Informal Recommendation 16: Embassy Bucharest should amend the motor vehicle policy to
allow use of motor pool services for official residence staff only as allowed by Department of
State regulations.

Informal Recommendation 17: Embassy Bucharest should appoint representatives from
different sections to the local information technology change control board.

Informal Recommendation 18: Embassy Bucharest should provide personal preparedness
seminars for staff and family members, scheduled as soon as possible after the conclusion of the
annual transfer cycle.

Informal Recommendation 19: Embassy Bucharest should include the community liaison
office coordinator in all meetings of the emergency action committee.

Informal Recommendation 20: Embassy Bucharest should designate an employee other than
the deputy chief of mission to serve as the Ambassador’s representative to the (b)(5)(b)(6)


Informal Recommendation 21: Embassy Bucharest should establish a policy and procedures
for the management officer to promptly register all gifts received by mission personnel and to
report such gifts as required.

Informal Recommendation 22: Embassy Bucharest should review and revise, as needed, the
work requirements statements for all direct-hire employees with responsibility for managing
funds or U.S. Government property to include ongoing responsibility for safeguarding such
resources against waste, fraud, or mismanagement.




                                         33
                             SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


Principal Officials
                                                                 Name       Arrival Date
Ambassador                                           Mark H. Gitenstein             8/09
Deputy Chief of Mission                               Duane C. Butcher              8/11
Chiefs of Sections:
  Management                                            Brian R. Moran             8/09
  Consular                                             Stephen A. Vann             9/11
  Political                                             David T. Morris            8/09
  Economic                                               Susan P. Garro            8/11
  Public Affairs                                         Patricia H. Guy           7/09
  Regional Security                                  Philip W. Nazelrod           10/11
Other Agencies:
  Department of Defense                      Col. Roderick E. Dorsey, Jr.          6/11
  Department of Justice                            Harry J. Giknavorian            6/08
  Foreign Commercial Service                         Edwin K. Kirkham              7/08
  Federal Bureau of Investigation (Legatt)         Timothy J. O’Malley             7/10
  U.S. Peace Corps                                       Sheila Crowley            2/10
  U.S. Secret Service                                   Darren T. White           11/09




                                        34
                            SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
DCM             Deputy chief of mission

Department      Department of State

EEO             Equal Employment Opportunity

ICASS           International Cooperative Administrative Support Services

IRC             Information Resource Center

LE              Locally employed

NATO            North Atlantic Treaty Organization

NEC             New embassy compound

OIG             Office of Inspector General

PAS             Public affairs section




                            35
                SENSITIVE BUT UNCLASSIFIED
   SENSITIVE BUT UNCLASSIFIED




FRAUD, WASTE, ABUSE,
OR MISMANAGEMENT
of Federal programs hurts everyone.




           Contact the
   Office of Inspector General
          HOTLINE
to report illegal or wasteful activities:



             202-647-3320
             800-409-9926


         oighotline@state.gov


             oig.state.gov


      Office of Inspector General
       U.S. Department of State
            P.O. Box 9778
        Arlington, VA 22219




   SENSITIVE BUT UNCLASSIFIED
